HHS/OIG, Audit -"Review of Rate Setting Methodology Medicaid School-Based Child Health Program Costs Claimed by the Connecticut Department of Social Services July 1997 Through June 2001,"(A-01-02-00006)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Rate Setting Methodology Medicaid School-Based Child Health
Program Costs Claimed by the Connecticut Department of Social Services July
1997 Through June 2001," (A-01-02-00006)
May 6, 2003
Complete
Text of Report is available in PDF format (1.21 MB). Copies can also
be obtained by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final report points out that methodologies used by the Connecticut Department
of Social Services (state agency) to develop reimbursement rates for the school
based child health program (SBCHP) were not in accordance with federal regulations,
standards, and guidelines.  Monthly SBCHP treatment service rates were
overstated by at least 50 percent resulting in excess reimbursement of about
$32.8 million (federal share) to the state for the period July 1, 1997 through
June 30, 2001.  In addition to inadequate rate setting methodologies,
the state agency did not establish adequate procedures to verify that the cost
data submitted by local education agencies were allowable and allocable for
reimbursement under the SBCHP.  We recommended a financial adjustment
and procedural improvements.  The state agency disagreed with our recommendation
for a financial adjustment, but recognized the need for changes to the methods
used to develop reimbursement rates.